January 4, 2021
Mr. Scott S. Harris, Clerk of the Court
United States Supreme Court
1 First Street, N.E.
Washington, D.C. 20543
Re:

State of Washington, petitioner v. Said Omer Ali, respondent
Supreme Court Case No. 20-830

Dear Mr. Harris:
The State of Washington filed a petition for a writ of certiorari in the above-captioned
case on December 16, 2020, and it was docketed on December 21, 2020. Said Omer Ali’s
response is currently due on January 20, 2021.
Mr. Said Omer Ali respectfully requests, pursuant to Supreme Court Rule 30.4, an
extension of time to file a response to the petition. We respectfully ask for an extension of
thirty days, to and including February 19, 2021.
This extension is requested to undersigned counsel may adequately prepare a
response. Counsel’s preparation will be delayed due to time away from his office for the
holidays, as well as logistical concerns and resource issues arising from the COVID-19
pandemic.
Thank you for your assistance in this request.

Sincerely,
____________________
Corey Evan Parker
The Appellate Law Firm

cc: Amy R. Meckling, King County Prosecuting Attorney

300 Lenora St., Ste. 900
Seattle, WA 98121
P: (877) 412-4786

The Appellate Law Firm

3680 Wilshire Blvd., Ste. P04-1207
Los Angeles, CA 90010
P: (877) 412-4786

